CERTIFICATE OF COMPLIANCE

IN RE: ESTATE OF MIRIAM MAE PHARRIS, DECEASED

As required by Supreme Court Rule 33. l(h), I certify that the Petitioner's
Petition for Writ of Certiorari in the above路referenced proceeding contains 6,078

words, excluding the parts of the petition that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

a 路路y E. Roux
*Counsel of Record
Law Office of Kathy Roux
4501 Merlot Avenue, Suite 100-A
Grapevine, Texas 76051
Tel.: (817) 874路8877
Email: kathy@kathyrouxlaw.com
Attorney for Petitioner

